No:
IN THE
SUPREME COURT OF THE UNITED STATES
DELVA NEWHOUSE,
as Administratrix of the Estate of,
WILLIAM PERRY NEWHOUSE III,PETITIONER,
-VSETHICON INC, et al,
RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains

8r503 words, and less than 9,000 words excluding the

parts of the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Date:
CC: Respondent
File

S'

Ik

:ully Summ

PETITIONER IN PRO PER
DELVA NEWHOUSE
865 CARBIDE RD
GLEN, WEST VIRGINIA 25088
(304) 388-5045

